               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Altoona, PA Originating and
        Destinating Mail Consolidation

                       Audit Report




                                         September 30, 2013

Report Number NO-AR-13-010
                                                                  September 30, 2013

                                                       Altoona, PA Originating and
                                                     Destinating Mail Consolidation

                                                       Report Number NO-AR-13-010



BACKGROUND:
This audit report responds to a request     Facility improved; and established AMP
from Senator Robert P. Casey, Jr. of        guidelines were generally followed.
Pennsylvania. The objective was to
assess the consolidation of mail            We found the AMP overstated savings
processing operations from the Altoona,     by $89,326 for the first year due to a
PA Processing and Distribution Facility     one-time cost overestimate. In addition,
into the Johnstown, PA Processing and       the AMP savings was overstated by
Distribution Facility.                      $138,839 in subsequent years due to
                                            additional transportation costs and
We also assessed compliance with            unrealized maintenance savings.
established Area Mail Processing (AMP)      Finally, AMP guidelines were followed,
guidelines. Both facilities are in the      but some procedures were not
Western Pennsylvania District of the        completed in a timely manner. Not
Eastern Area. The Altoona Processing        meeting the timeline did not adversely
and Distribution Facility originating       affect the consolidation process.
consolidation occurred in August 2012,
and a portion of the destinating mail was   WHAT THE OIG RECOMMENDED:
consolidated in July 2013.                  We recommended the vice president,
                                            Network Operations, direct the
WHAT THE OIG FOUND:                         manager, Area Mail Processing and
A business case exists to support the       Facility Consolidations, reevaluate
consolidation, which should produce a       maintenance savings and make
cost savings of about $301,000 in the       adjustments to the AMP proposal in the
first year and $579,000 annually in         first Post-Implementation Review.
subsequent years.
                                            Link to review the entire report
Our analysis indicated adequate
machine capacity and floor space exists
to process mail at the Johnstown
Processing and Distribution Facility;
customer service has not been
significantly impacted by the
consolidation; delayed mail declined
after the consolidation; no employees
lost their job; overall efficiency at the
Johnstown Processing and Distribution
September 30, 2013

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Altoona, PA Originating and Destinating Mail
                           Consolidation (Report Number NO-AR-13-010)

This report presents the results of our audit of the Altoona, PA Originating and
Destinating Mail Consolidation (Project Number 13XG027NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Altoona, PA Originating and                                                                                        NO-AR-13-010
 Destinating Mail Consolidation



                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Capacity .......................................................................................................................... 2

Customer Service ............................................................................................................ 3

Customer Experience ...................................................................................................... 5

Delayed Mail ................................................................................................................... 6

Employee Impact ............................................................................................................ 7

Productivity ...................................................................................................................... 7

Cost Savings ................................................................................................................... 8

AMP Guidelines ............................................................................................................ 11

Recommendation .......................................................................................................... 11

Management’s Comments ............................................................................................ 11

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objectives, Scope, and Methodology ........................................................................ 13

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Other Impacts ........................................................................................... 17

Appendix C: Management's Comments ........................................................................ 18
Altoona, PA Originating and                                                                      NO-AR-13-010
 Destinating Mail Consolidation


Introduction

This report presents the results of our audit of the Altoona, PA Processing and
Distribution Facility (P&DF) Originating and Destinating Mail Consolidation
(Project Number 13XG027NO000). This report responds to a request from U.S. Senator
Robert P. Casey, Jr. of Pennsylvania to review the consolidation. Our objectives
assessed the consolidation of originating and destinating mail processing operations
from the Altoona P&DF into the Johnstown P&DF and assess compliance with
established Area Mail Processing (AMP) guidelines. The Altoona P&DF originating
consolidation occurred in August 2012 and a portion of the destinating mail was
consolidated in July 2013. See Appendix A for additional information about this audit.

The U.S. Postal Service developed a formal process for the review and implementation
of AMP proposals. This process is defined in Handbook PO-408. 1 The Postal Service
uses the AMP process to determine whether it can consolidate from one or more postal
facilities into other facilities to:

   Increase operational efficiency and improve productivity through more efficient use
    of assets, such as equipment, facilities, staffing, and transportation.

   Provide affected career employees with opportunities for job reassignments.

   Provide Postal Service customers with the same high-quality service they expect.

   Ensure overall cost reductions.

Conclusion

A business case supporting the consolidation exists and we estimate it will result in a
cost savings of about $301,000 in the first year and $579,000 in subsequent years.

Our analysis also concluded that:

   Adequate machine capacity and floor space exists at the Johnstown P&DF to
    process mail volume from the Altoona P&DF.

   Customer Service was not negatively impacted.

   Delayed mail conditions improved after the consolidation at both Altoona P&DF and
    Johnstown P&DF.


1
  Handbook PO-408, Area Mail Processing Guidelines, March 2008. An AMP feasibility study determines whether
there is a business case for relocating processing and distribution operations from one location to another.
                                                           1
 Altoona, PA Originating and                                                          NO-AR-13-010
  Destinating Mail Consolidation


    No employees lost their job.

    Overall productivity at the Johnstown P&DF improved after the consolidation.

    The AMP overestimated savings by $89,326 for the first year and $138,839 in
     subsequent years. We are questioning $138,839 in predicted savings shortfall for
     subsequent years’ savings. See Appendix B for a detailed explanation of predicted
     savings shortfall costs.

    AMP guidelines were generally followed; however, there were instances when some
     AMP study steps were not completed within established timeframes.

 Capacity

 Adequate machine capacity and floor space exist at the Johnstown P&DF to process
 mail volume from the Altoona P&DF. With the additional equipment the Johnstown
 P&DF received as a result of the consolidation, adequate capacity exists to sort the
 volume arriving from the Altoona P&DF (see Table 1). Similarly, the Altoona P&DF has
 adequate capacity to process the remaining mail volumes (see Table 2).

                   Table 1. Johnstown P&DF Equipment Excess Capacity


                                                                 Mailpieces

                         Number of          Mail           Maximum
     Equipment           Machines        Processed         Capacity           Excess Capacity
  Automated Facer
                               3         68,567,872       190,612,800 122,044,928        64%
  Canceller System
  Automated Flats              1         31,387,474        62,775,000   31,387,526       50%
  Sorting Machine
 Delivery Bar Code
                               6        493,199,002       522,004,350 28,805,348          6%
       Sorter
   Delivery Input
                               2         56,739,882       140,963,200 84,223,318         60%
 Output Sub-system
Source: Enterprise Data Warehouse (EDW) and Web End-of-Run (WebEOR).




                                                    2
 Altoona, PA Originating and                                                                           NO-AR-13-010
  Destinating Mail Consolidation


                       Table 2. Altoona P&DF Equipment Excess Capacity

                                                                      Mailpieces
                           Number of   Mail                       Maximum
     Equipment             Machines Processed                     Capacity       Excess Capacity
  Automated Flats
  Sorting Machine                 1          11,957,925          62,775,000          50,817,075            81%
 Delivery Bar Code
       Sorter                     4         259,649,899         274,288,000          14,638,101             5%
Source: EDW and WebEOR.

 Customer Service

 Based on External First-Class (EXFC) scores, service standard impacts, Customer
 Experience measurement, and Intelligent Mail barcode (IMb) performance, the
 consolidation did not negatively impact customer service. In addition, mail acceptance
 operations and hours were not affected and a local Altoona postmark remains available.

 EXFC Scores

 Customer service performance, measured by the EXFC measurement system 2 was not
 significantly impacted by the consolidation. As shown in Table 3, nine out of 12
 indicators in Overnight, 2-day, and 3-day service improved over Quarters (Qs) 1 and 2,
 fiscal year (FY) 2013 when compared to the pre-consolidation results.




 2
  Test an independent contractor performs to measure service performance for First-Class Mail (letters, flats, and
 postcards) from mail collection to final delivery.


                                                           3
 Altoona, PA Originating and                                                                     NO-AR-13-010
  Destinating Mail Consolidation



                                            Table 3. EXFC Scores


                                                 Before Consolidation            After Consolidation

                                                       FY 2012                         FY 2013
      EXFC
     Standard          Facility3                   Q1                Q2            Q1              Q2
                  Altoona P&DF                    96.48             97.68         97.04           96.31
     Overnight
                  Johnstown P&DF                  96.21             98.54         96.51           97.59
                  Altoona P&DF                    93.71             93.56         93.78           94.71
     2-Day
                  Johnstown P&DF                  93.00             95.13         94.99           95.73
                  Altoona P&DF                    89.53             90.67         92.50           91.92
     3-Day
                  Johnstown P&DF                  89.02             93.63         91.82           89.59
 Source: EDW.
 Note: Green numbers show an improvement in service scores compared to the same quarter in FY 2012, while the
 red numbers indicate a decline.

 Service Standard Impacts

 Generally, the consolidation resulted in improvements to service standards and actual
 service standards were better than AMP projections. For example, the AMP projected
 six overall net upgrades for all classes of mail, while the actual consolidation resulted in
 12 overall net upgrades (see Table 4). Service standard upgrades improve customer
 service by requiring that mail arrive at the destinating facility sooner for delivery.

                                   Table 4. Service Standard Impacts

                                 AMP Projected                                     AMP Actual
                                                            Net                                         Net
    Service         Upgrade         Downgrade             Change       Upgrade     Downgrade          Change
 First-Class
 Mail                    0                  2                 (2)           4             0                4
 Priority Mail           0                  2                 (2)           5             1                4
 Periodicals             8                  10                (2)           4             0                4
 Standard
 Mail                   22                  14                8             0             0                0
 Packages                8                  4                 4             0             0                0
 Total                  38                  32                6             13            1               12
Source: Service Standard Directory (SSD).




 3
  Facility three-digit ZIP Codes impacted were Altoona P&DF 166 and 168; and Johnstown P&DF 155, 157, 158, and
 159.


                                                          4
Altoona, PA Originating and                                                                       NO-AR-13-010
 Destinating Mail Consolidation


Customer Experience

Residential scores from the Customer Experience Measurement (CEM) 4 system
showed net improvements for both facilities following the consolidation. As shown in
Table 5, Qs 1 and 2, FY 2013, CEM scores improved in eight of the 12
three-digit ZIP Codes impacted by the consolidation.

                             Table 5. Customer Experience Scores

                           FY 2012 FY 2012     FY 2012       FY 2013 FY 2013
    3-Digit ZIP Codes
                             Q2      Q3          Q4            Q1      Q2
    Altoona 166             89.06   88.89                     94.74   93.06
    Altoona 168             91.67   98.04                     92.00   90.20
    Johnstown 155           89.66   91.67                     88.89   92.00
                                           AMP Consolidation
    Johnstown 157           91.18   90.91                     89.66   94.59
    Johnstown 158           78.57   83.33                     92.31   96.97
    Johnstown 159           93.22   96.30                     93.33   92.00
Source: Postal Service.
Note: Green numbers show an improvement in CEM scores while the red numbers indicate a decline.

IMb

The IMb is a mailer-applied barcode used to sort and track individual mailpieces and as
a service performance indicator for large mailings. Following the consolidation, IMb
service percentages in FY 2013 remained consistent between the two quarters for each
facility indicating there was no adverse impact on service performance as a result of the
consolidation (see Chart 1).




4
 The CEM program is designed around the customer with survey results and other customer feedback being
organized across common categories that provide a comprehensive understanding of the end-to-end customer
experience.




                                                      5
Altoona, PA Originating and                                                                       NO-AR-13-010
 Destinating Mail Consolidation



                                          Chart 1. IMb Performance

                  First-Class 5           Periodicals             Standard Mail




         Source: IMb Service Performance Diagnostics.

Delayed Mail

Following the consolidation, delayed mail decreased at both 6 facilities. Specifically,
delayed mail at the Altoona P&DF decreased from 17 to 3 percent of first-handling
pieces (FHP) volume. Similarly, the Johnstown P&DF realized a decrease in delayed
mail from 7 to 2 percent even with the additional mail volume from the Altoona P&DF
(see Table 6).

                      Table 6. Delayed Mail as a Percentage of FHP Volume

                                                                           Same Period Last Year
                                   Post-AMP*                                      (SPLY)**
                           Delayed Mail    Percent                       Delayed Mail      Percent
    Facility                 (Pieces)      Delayed                         (Pieces)        Delayed
Altoona                     2,797,903        3%                           19,110,938        17%
Johnstown                   3,629,943        2%                           10,792,825         7%
Source: EDW and Mail Condition Reporting System (MCRS).
* Post-AMP: September 2012 to February 2013.
**SPLY: September 2011 to February 2012.




5
    First-Class percentage for Q1 was not available for Johnstown.
6
    The Altoona P&DF continues to process Delivery Point Sequence mail and carrier route flats.


                                                           6
Altoona, PA Originating and                                                                              NO-AR-13-010
 Destinating Mail Consolidation


Employee Impact

Consolidation of the Altoona P&DF into the Johnstown P&DF did not result in any job
losses. Affected employees were transferred to the Johnstown P&DF and the Altoona
Main Post Office; both within 50 miles of the losing facility.

Specifically:

   There was a reduction of 34 employees (clerk, mail handler, and maintenance) and
    elimination of three executive and administrative schedule (EAS) positions at the
    Altoona P&DF.

   Five clerks were involuntarily reassigned 7 to Function 4 8 positions at the Altoona
    Main Post Office.

   Three clerks and five mail handlers were involuntarily reassigned to the Johnstown
    P&DF.

   One maintenance support clerk was involuntarily reassigned to the maintenance
    craft as a custodian.

   Twenty employees retired during the consolidation period.

   Seven of the employees who were involuntarily reassigned exercised their retreat
    rights to return to the Altoona P&DF. Management said this occurred because the
    unions received a 45-day Comparative Workhour Report 9 as required in the
    contracts.

   The Altoona P&DF AMP proposal did not include relocation costs for the affected
    employees since all reassignments were within 50 miles.

Productivity

Mail processing FHP productivity at the Johnstown P&DF improved after the
consolidation. The Johnstown P&DF's FHP productivity 10 increased by 23 percent from
1,999 to 2,463 mailpieces per hour compared to SPLY (see Table 7).




7
  An involuntarily reassigned employee may exercise retreat rights when a vacancy occurs at the original office from
which the employee was transferred. Employees retain retreat rights until they decline an offer to return to the losing
facility.
8
  Mainly manual distribution of mail to carriers and to post office boxes in a station, branch, or Post Office.
9
  The report provides a listing of all workhours used on a daily basis in the affected craft for the period of 30 days
before and 30 days after the reassignments. If the report does not indicate that conditions warranted the
reassignments, the retreat rights of the affected employees are activated.
10
   FHP divided by workhours equals FHP productivity. This number is useful when evaluating overall productivity.


                                                           7
Altoona, PA Originating and                                                NO-AR-13-010
 Destinating Mail Consolidation



               Table 7. Productivity Impact – Johnstown Processing and
                              Distribution Facility (P&DF)

                                    Period              FHP Productivity

                                  Post-AMP*                    2,463

                                     SPLY                      1,999

                            Percentage Change                   23%
                           Source: EDW.
                           *6 months (September 2012 to February 2013).

Cost Savings

The AMP overestimated savings by $89,326 for the first year and $138,839 in
subsequent years. The Postal Service estimated savings of $390,354 in the first year
and $717,524 annually in subsequent years. The U.S. Postal Service Office of Inspector
General (OIG) estimated first year savings of $301,028 and $578,685 annually in
subsequent years, resulting in differences of $89,326 and $138,839, respectively. The
difference in subsequent years was due to transportation and maintenance costs, while
the cost savings difference for the first year was due to a one-time cost overestimate
(see Table 8).




                                                    8
Altoona, PA Originating and                                                                             NO-AR-13-010
 Destinating Mail Consolidation



                                          Table 8. Overall Savings

                                                                 AMP              OIG
                                                               Projected        Projected
                                                               Savings/         Savings/
                 Savings Category                               (Cost)           (Cost)            Difference

     Mail Processing Workhour Savings*                         $537,015         $536,946               $(69)

    Postal Career Executive Service/EAS
                                                                13,235            13,235                  0
      Supervisor Workhour Savings**

            Transportation Savings***                          (39,718)          (53,651)            (13,933)

             Maintenance Savings****                           207,024            82,186            (124,838)

    Annual Savings After the First Year                        $717,524         $578,685           $(138,839)

                   One-Time Costs                              (327,170)        (277,657)             49,513

            Total First Year Savings                           $390,354         $301,028            $(89,326)
  Source: AMP package and EDW.
  *Our calculations indicate the workhour savings were close to postal estimates.
  **Postal and OIG calculated equal savings.
  ***After the consolidation, additional highway contract route trips resulted in additional costs of $13,933.
  ****Savings consists of maintenance workhour savings, maintenance operations support, and spare parts
  inventory. Our calculations indicate the projected savings in the AMP was not fully realized.

Transportation Cost

The Altoona P&DF AMP underestimated transportation costs The OIG calculated a
higher cost of $53,651 due to the cost of trips not included in the AMP (see Table 9).
We consider the difference of $13,933 non-material and we will not make a
recommendation on this matter.




                                                           9
Altoona, PA Originating and                                                                NO-AR-13-010
 Destinating Mail Consolidation


                      Table 9. Transportation Savings (Costs) Comparison

                                        Per AMP                                   Per OIG
                                                                            Post-
         Site          Pre-AMP          Proposed            Difference                 Difference
                                                                           AMP **
 Altoona
                      $1,397,314        $1,158,146          ($239,168) $1,440,743         $43,429
 P&DF
 Johnstown
                          969,880        1,248,766            278,886       577,924     (391,956)
 P&DF
 Trips not
 included in
 AMP &                                                                      402,179       402,179
 Pending
 Cost *
 Net Cost             $2,367,194        $2,406,912           ($39,718) $2,420,845         $53,651

 Difference                                                                               $13,933
Source: AMP package and OIG analysis.
*Transportation changes will take effect on November 1, 2013.
**Date of data extraction was July 2013.

Maintenance Costs

Maintenance costs were underestimated by $124,838. The majority of the
understatement is in Labor Distribution Code (LDC) 36 11 workhour costs. The AMP
projected a cost decrease of $103,332; however, costs in this area actually increased
by $30,080. This occurred because maintenance employees were not eliminated and
mail processing equipment was not transferred from the Altoona P&DF, as identified in
the AMP. Table 10 contains a maintenance cost comparisons.

                       Table 10. Maintenance Savings (Cost) Comparison

           Workhour Activity                           Per AMP           Per OIG   Difference
 Postal Operating Equipment – LDC 36                   $103,322          ($30,080) ($133,402)
 Maintenance, Planning, Control and
 Stores – LDC 39                                             72,102        81,424       9,322
 Maintenance Parts, Supplies, Facility
 Utilities                                               31,600            30,842      (758)
 Total Maintenance                                     $207,024           $82,186 ($124,838)
Source: AMP Package and WebEOR.




11
     LDC 36 is maintenance of Postal Operating Equipment.


                                                        10
Altoona, PA Originating and                                                  NO-AR-13-010
 Destinating Mail Consolidation



One-Time Costs

One-time costs were overestimated by $49,513. The AMP projected one-time costs of
$327,170. Actual costs were $277,657 because the contractor completed both facility
work and equipment relocation for less than the AMP estimate.

AMP Guidelines

The Postal Service complied with stakeholder communication policies when conducting
the AMP study and generally followed the AMP guidelines; however, there were
instances when some of the AMP study steps were not completed within established
timeframes. Not meeting the timeline did not adversely affect the consolidation process.

Recommendation

We recommend the vice president, Network Operations direct the manager, Area Mail
Processing and Facility Consolidations:

1. Reevaluate maintenance savings and make adjustments to the Area Mail
   Processing proposal in the first Post-Implementation Review.

Management’s Comments

Management agreed with our finding and recommendation. Management stated two
Post-Implementation Review (PIRs) will be conducted following implementation of the
AMP. The first PIR will begin April 1, 2014 and will be completed by May 31, 2014. See
Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management’s comments responsive to the
recommendation and corrective action should resolve the issue identified in the report.




                                           11
Altoona, PA Originating and                                                    NO-AR-13-010
 Destinating Mail Consolidation



                                     Appendix A: Additional Information

Background

As of June 30, 2013, the Postal Service has suffered net losses in 7 consecutive
quarters in 16 of the last 18 quarters. The requirement to prefund its retiree health
benefit obligations, plus the precipitous drop in mail volume caused by changes in
consumers’ uses of mail, have been the two major factors contributing to Postal Service
losses since the recession ended in 2009.

The Postal Service continues to aggressively pursue strategies within its control to
increase efficiency and to improve its liquidity position. These measures include
consolidating the mail processing, retail, and delivery networks to better align them with
mail volumes, pursuing new revenue streams, and reducing workforce costs.

During 2012, the Postal Service announced detailed plans to implement these
strategies, and actions are underway to increase the productivity of the mail processing,
delivery, and retail networks. This requires the consolidation of several mail processing
and distribution locations and the rescheduling of transportation routes, while continuing
to deliver appropriate levels of service to communities throughout America.

The Postal Service uses AMP guidelines to consolidate mail processing functions and
to eliminate excess capacity, increase efficiency, and better use resources.
Consolidations provide opportunities for the Postal Service to reduce costs and/or
improve service and operate as a leaner, more efficient organization. Automated
processing of mail has provided opportunities to take advantage of consolidations. The
opportunities include consolidations of:

      First-Class originating operations.
      First-Class incoming operations.
      Overnight Priority Mail processing.
      Originating Priority Mail processing.
      Destinating Priority Mail processing.
      Annexes into main facilities.
      Facilities.

In response to a request from Congressman Robert P. Casey, Jr. to review several
Pennsylvania mail processing facility consolidations, the OIG began an audit of the
originating Altoona, PA P&DF consolidation in February 2013. While reviewing the AMP
regarding consolidation of the Altoona, PA P&DF originating 12 mail into the Johnstown,
PA P&DF, we became aware of a revised AMP package that expanded the


12
     Originating is the point of entry into the mainstream.


                                                              12
Altoona, PA Originating and                                                 NO-AR-13-010
 Destinating Mail Consolidation


consolidation to include some of Altoona P&DF’s destinating 13 operations. Our review of
this revised AMP identified significant errors. We reported these errors to the Postal
Service in June 2013. The Postal Service made the necessary corrections and reissued
the revised AMP package.

Objectives, Scope, and Methodology

Our objectives accessed the consolidation of originating mail processing operations
from the Altoona P&DF to the Johnstown P&DF and compliance with established AMP
guidelines. We reviewed data from March 2012 through July 2013 to analyze mail
trends and productivity at the Altoona and Johnstown P&DFs. Additionally, we reviewed
service scores, conducted observations, and interviewed management.

We used computer-processed data from the following Postal Service systems:

      CEM.
      EDW.
      IMb.
      MCRS.
      SSD.
      Web Complement Information System.
      WebEOR.

We conducted this performance audit from February through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 5, 2013, and included
their comments where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




13
     Destinating is the intended point of delivery for mail.


                                                               13
    Altoona, PA Originating and                                                   NO-AR-13-010
     Destinating Mail Consolidation



    Prior Audit Coverage

                                                        Final
                                                       Report          Monetary
          Report Title            Report Number          Date           Impact
New Castle and Greensburg,         NO-AR-13-004       8/16/2013        $978,954
PA Consolidation
Report Results:
There was a business case to support the consolidation. Management agreed with
our recommendations to coordinate with the Facility Service Office when rental
space is vacated to ensure appropriate lease termination actions are taken; take
action to sublease, buyout, or terminate lease agreements for vacated facilities; and
ensure Voyager eFleet cards are stored in a secure manner.

Frederick, MD to Baltimore,         NO-AR-12-006        4/3/2012          $558,021
MD Area Mail Processing
Consolidation
Report Results:
Consolidation of destinating mail processing operations initially resulted in
significant delayed mail, declines in service and customer experience scores, and
increased transportation costs. Management acknowledged there were challenges
with the consolidation, but had addressed many of the problems experienced during
the consolidation and operating conditions had improved. Management agreed with
the recommendation to avoid implementing consolidations during the fall and
holiday peak mailing seasons, as appropriate. Management also agreed with the
recommendation to ensure customer service commitments are met, but noted
operations for sectional center facility 217 have now stabilized and service levels
above national targets are being achieved. Management also stated the Postal
Service was paying a contractor for services no longer required since the
consolidation. They are working to ensure reimbursement of payments for services
not performed and expect this to be completed by the end of the calendar year.

Oxnard, CA Processing and           NO-AR-12-004        3/6/2012            None
Distribution Facility
Destinating Mail Consolidation
Report Results:
There was a business case to support the consolidation. Management agreed with
our recommendations to monitor customer service measurement, 24-hour clock
indicators, delayed mail, and staffing levels to ensure mail is processed timely.




                                                14
    Altoona, PA Originating and                                                    NO-AR-13-010
     Destinating Mail Consolidation




                                                          Final
                                                         Report          Monetary
           Report Title               Report Number       Date            Impact
Industry CA Processing and          NO-AR-12-002        10/17/2011      $1,321,651
Distribution Center Mail
Consolidation
Report Results:
A valid business case exists to consolidate originating mail processing operations
from the industry P&DC into the Santa Ana P&DC to achieve a cost savings of
about $1.32 million annually. We made no recommendations.

Oshkosh, WI Processing and            NO-AR-11-006       7/29/2011        None
Distribution Facility
Consolidation
Report Results:
A business case existed to support the consolidation with the exception of sufficient
floor space and machine capacity. Management agreed with the recommendations,
but disagreed with our analysis of floor space and letter processing capacity.

Implementation of Lima, OH to       EN-AR-11-004       3/31/2011       $105,125
Toledo, OH Area Mail
Processing Consolidation
Report Results:
While there was a valid business case for the consolidation, management did not
ensure on-time performance and customer service was improved or maintained
during the implementation of the consolidation. Management agreed with our
recommendations to monitor and assess workload and capabilities, and make the
necessary adjustments. Management also agreed to assess and improve mail flow,
Mail Transportation Equipment processing and staging, overall site layout, and
establish and deploy a formal AMP implementation team to the gaining facility for
facility closures.

Columbus, GA Customer               NO-AR-11-005       2/14/2011       None
Service Mail Processing Center
Originating Mail Consolidation
Report Results:
A business case existed to support the consolidation. No recommendations were
made.




                                                15
    Altoona, PA Originating and                                                 NO-AR-13-010
     Destinating Mail Consolidation




                                                       Final
                                                      Report        Monetary
           Report Title            Report Number       Date          Impact
Houston, TX Processing and          NO-AR-11-004    12/14/2010     $18,974,468
Distribution Center Mail
Consolidation
Report Results:
A business case existed to consolidate the Houston P&DC’s mail processing
operations into the North Houston P&DC, based on the premise that the
North Houston P&DC is expanded. Management agreed with the conclusion and
planned to pursue the expansion of the North Houston P&DC and consolidate the
Houston P&DC’s mail processing operation. Management also agreed with our
recommendations to modify the postmark, update employees on the consolidation,
and monitor service during implementation of the consolidation process.

Marysville, CA Processing and       NO-AR-11-002       11/23/2010      None
Distribution Facility
Consolidation
Report Results:
A business case existed to support the consolidation. No recommendations were
made.

Review of Wilkes-Barre, PA          NO-AR-11-001       10/4/2010       None
Processing and Distribution
Facility Consolidation
Report Results:
A business case existed to support the consolidation. No recommendations were
made.




                                             16
Altoona, PA Originating and                                                                           NO-AR-13-010
 Destinating Mail Consolidation



                                       Appendix B: Other Impacts


            Recommendation                       Impact Category                            Amount
                  1                      Predicted Savings Shortfall for                    $138,839
                                         Savings After the First Year 14




14
  The difference between the savings predicted by the Postal Service for a project (for example, capital investment,
consolidation, and so forth) and the actual savings realized or the OIG estimate of savings which will be realized.




                                                         17
Altoona, PA Originating and                                    NO-AR-13-010
 Destinating Mail Consolidation


                           Appendix C: Management's Comments




                                          18
Altoona, PA Originating and            NO-AR-13-010
 Destinating Mail Consolidation




                                  19
